No. 20A________

In the Supreme Court of the United States
STATE OF LOUISIANA,
v.

Applicant,

TAZIN ARDELL HILL
Respondent.
APPLICATION FOR A STAY PENDING DISPOSITION OF PETITION FOR
CERTIORARI TO THE LOUISIANA SUPREME COURT
To the Honorable Samuel A. Alito
Associate Justice of the Supreme Court of the United States and
Circuit Justice for the Fifth Circuit

PROOF OF SERVICE

Undersigned counsel certifies that, under Supreme Court Rule 29.3, the
Application for a Stay Pending Disposition of Petition for Certiorari to the Louisiana
Supreme Court was served on each party, or that party’s counsel, as listed below, on
December 11, 2020. Service was made by United States mail—with first-class postage
prepaid.
Michael Gregory
Louisiana Capital Assistance Center
636 Baronne Street
New Orleans, LA 70113

I declare under penalty of perjury that the following is true and correct.
Executed on December 11, 2020.
/s/ Elizabeth Baker Murrill
ELIZABETH BAKER MURRILL

